APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Entry in the Supreme Court of Ohio
(July 23, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Journal Entry and Opinion in the
Court of Appeals of Ohio, Eighth
Appellate District County of Cuyahoga
(February 7, 2019) . . . . . . . . . . . . App. 2
Appendix C Journal Entry in the Court of Common
Pleas Cuyahoga County, Ohio
(April 13, 2018) . . . . . . . . . . . . . . App. 21

App. 1

APPENDIX A
THE SUPREME COURT OF OHIO
Case No. 2019-0434
[Filed July 23 2019]
_______________________
Andre Jenkins
)
)
v.
)
)
City of Cleveland, et al. )
_______________________ )
ENTRY
Upon consideration of the jurisdictional memoranda
filed in this case, the court declines to accept
jurisdiction of the appeal pursuant to S.Ct.Prac.R.
7.08(B)(4).
(Cuyahoga County Court of Appeals; No. 107135)

s/________________________
Maureen O’Connor
Chief Justice

App. 2

APPENDIX B
COURT OF APPEALS OF OHIO
EIGHTH APPELLATE DISTRICT
COUNTY OF CUYAHOGA
No. 107135
[Filed February 7, 2019]
___________________________________
ANDRE JENKINS
)
)
PLAINTIFF-APPELLANT
)
)
vs.
)
)
CITY OF CLEVELAND, ET AL.
)
)
DEFENDANTS-APPELLEES )
___________________________________ )
JOURNAL ENTRY AND OPINION
JUDGMENT:
AFFIRMED
Civil Appeal from the
Cuyahoga County Court of Common Pleas
Case No. CV-15-854094
BEFORE: Boyle, P.J., Celebrezze, J., and Jones, J.
RELEASED AND JOURNALIZED: February 7, 2019

App. 3
ATTORNEYS FOR APPELLANT
James R. Willis
614 W. Superior Avenue, Suite 1144
Cleveland, Ohio 44115
Clarissa Smith
C.A. Smith Law Office, L.L.C.
1801 Euclid Avenue, Suite A075
Cleveland, Ohio 44115
ATTORNEYS FOR APPELLEES
For City of Cleveland, et al.
Barbara A. Langhenry
Director of Law
BY: Elena N. Boop
Luke D. Mahoney
Law Department
City of Cleveland
601 Lakeside Avenue, Room 106
Cleveland, Ohio 44114
MARY J. BOYLE, P.J.:
{¶1} Plaintiff-appellant, Andre Jenkins, appeals
from the trial court’s judgment granting summary
judgment to defendants-appellees, the city of
Cleveland, Cleveland Police Chief Calvin Williams, and
Officer Colin Ginley (“defendants” or “the city”). He
raises two assignments of error:
1. Due process is denied when, without a factual
basis (and solely on the basis of naked, unclad,
unproven, unprovable and unfounded
conclusions), the court concluded it lacked

App. 4
jurisdiction to determine whether money seized
incident to an arrest by local police was
forfeitable.
2. Absent a factual finding that the federal court
had indeed acquired jurisdiction, and given that
“the court that exercises first jurisdiction” over
seized property does so exclusively, it follows the
court here erred when it declared it lacked
jurisdiction.
{¶2} Finding no merit to his assignments of error,
we affirm.
I. Procedural History and Factual Background
{¶3} We previously discussed the procedural history
and factual background of this case in Jenkins’s
previous appeal in Jenkins v. Cleveland, 8th Dist.
Cuyahoga No. 104768, 2017-Ohio-1054,
The instant matter arose from a dispute over
$14,890 that officers from the Cleveland Police
Department seized from Jenkins during a traffic
stop on August 24, 2015.
On November 10, 2015, Jenkins, pursuant to
R.C. 2981.03(A)(4), filed a petition for return of
property against defendants-appellees[.] In his
petition, Jenkins argued that the officers
illegally seized his money without probable
cause and requested that the money be returned
immediately.
On December 1, 2015, the city filed two motions
to dismiss: one pertained to the city and Chief

App. 5
Williams, and the other pertained to Officer
Ginley. In its motions to dismiss, the city argued
that (1) the federal government filed a warrant
to seize Jenkins’s money in the United States
District Court for the Northern District of Ohio
on October 7, 2015; (2) the city turned the money
over to the federal government pursuant to the
federal warrant on October 8, 2015; and (3) the
city no longer possessed Jenkins’s money and,
thus, had nothing to return to Jenkins.
On June 27, 2016, the trial court granted the
city’s motions to dismiss, and dismissed the
matter pursuant to State u. Clayton, 8th Dist.
Cuyahoga No. 98795, 2013-Ohio-2198.
Id. at ¶ 2-5.
{¶4} Jenkins appealed, challenging the trial court’s
order granting defendants’ motions to dismiss and
arguing that the trial court erred by failing to hold a
hearing and not making findings of fact. Id. at ¶6. This
court agreed with Jenkins, holding that “the record is
devoid of any evidence supporting the city’s assertions
that the federal government seized Jenkins’s money,
the city transferred Jenkins’s money to the federal
government, or that Jenkins was notified of a forfeiture
action.” Id. at ¶23. This court found that defendants
failed to properly show that the money was transferred
to the federal government, thereby depriving the trial
court of jurisdiction. Id. at ¶24. The Jenkins court
reversed the trial court’s dismissal of Jenkins’s petition
for the return of his property and remanded the case.
Id. at ¶25.

App. 6
{¶5} On remand, defendants filed a motion for
summary judgment, which again argued that the trial
court lacked jurisdiction over Jenkins’s motion to
return property because the federal government was in
possession of Jenkins’s money. Defendants attached
sworn affidavits from Cleveland police officers Negron
and Ward with supporting exhibits, which included
court filings from the federal forfeiture proceedings,
property slip sheets, and cash receipts and transfer
forms. Defendants also attached exhibits of a certified
copy of the criminal docket for Jenkins’s federal
criminal case and certified copies of the following court
filings for that case:
1. Application for a Warrant to Seize Property
Subject to Forfeiture, filed on October 7, 2015
2. Inventory Return Sheet for a $14,890 check,
filed on October 16, 2015
Defendants also attached a certified copy of the civil
docket for the federal court forfeiture proceedings for
Jenkins’s property and certified copies of the following
court filings for that case:
1. Complaint in Forfeiture, filed on March 1,
2016
2. Certified mail receipt returned and addressed
to James Willis, Jenkins’s attorney, filed
March 3, 2016
3. Process receipt and return, filed March 3,
2016

App. 7
4. Jenkins’s answer to Complaint in Forfeiture,
filed June 1, 2016
5. U.S. District Court’s Order of Forfeiture, filed
August 1, 2016
6. Process receipt and return, filed August 4,
2016
Finally, the city’s motion for summary judgment
also contained a certified copy of the criminal docket of
Jenkins’s municipal case.
{¶6} After holding a hearing and reviewing the
evidence presented and the parties’ arguments, the
trial court found that Jenkins’s money “was transferred
to the federal government[.]” The trial court concluded
that it “lack[ed] jurisdiction to hear [Jenkins’s]
complaint” and granted defendants’ motion for
summary judgment.
{¶7} It is from this judgment that Jenkins now
appeals.
II. Law and Analysis
{¶8} Jenkins’s assignments of error both contest the
trial court’s order granting summary judgment to
defendants after finding that it lacked jurisdiction over
Jenkins’s petition to return property. As a result, we
will discuss them together.
A. Standard of Review
{¶9} We review a trial court’s decision to grant
summary judgment de novo. Grafton v. Ohio Edison
Co., 77 Ohio St.3d 102, 105, 671 N.E.2d 241 (1996). De

App. 8
novo review means that this court independently
“examine[s] the evidence to determine if as a matter of
law no genuine issues exist for trial.” Brewer v.
Cleveland Bd. of Edn., 122 Ohio App.3d 378, 383, 701
N.E.2d 1023 (8th Dist.1997), citing Dupler v. Mansfield
Journal, 64 Ohio St.2d 116, 413 N.E.2d 1187 (1980).
{¶10} Under Civ.R. 56(C), summary judgment is
properly granted when (1) “there is no genuine issue as
to any material fact”; (2) “the moving party is entitled
to judgment as a matter of law”; and (3) “reasonable
minds can come to but one conclusion, and that
conclusion is adverse to the party against whom the
motion for summary judgment is made[.]” Harless v.
Willis Day Warehousing Co., 54 Ohio St.2d 64, 66, 375
N.E.2d 46 (1978). Because it ends litigation, courts
should carefully award summary judgment only after
resolving all doubts in favor of the nonmoving party
and finding that “reasonable minds can reach only an
adverse conclusion” against the nonmoving party.
Murphy v. Reynoldsburg, 65 Ohio St.3d 356, 358-359,
604 N.E.2d 138 (1992).
{¶11} “The burden of showing that no genuine issue
exists as to any material fact falls upon the moving
party. Once the moving party has met his burden, it is
the nonmoving party’s obligation to present evidence on
any issue for which that party bears the burden of
production at trial.” Robinson v. J.C. Penney Co., 8th
Dist. Cuyahoga Nos. 62389 and 63062, 1993 Ohio App.
LEXIS 2633, 14 (May 20, 1993), citing Harless and
Wing v. Anchor Media, Ltd. of Texas, 59 Ohio St.3d
108, 570 N.E.2d 1095 (1991). “The moving party is
entitled to summary judgment if the nonmoving party

App. 9
fails to establish the existence of an element essential
to that party’s case and on which that party will bear
the burden of proof at trial.” Brandon/Wiant Co. v.
Teamor, 125 Ohio App.3d 442, 446, 708 N.E.2d 1024
(8th Dist.1998), citing Celotex Corp. v. Catrett, 477 U.S.
317, 106 S.Ct. 2548, 91 L.Ed.2d 265 (1986).
{¶12} As to evidentiary materials attached to a
motion for summary judgment, Civ.R. 56(E) states, in
relevant part,
[s]upporting and opposing affidavits shall be
made on personal knowledge, shall set forth
such facts as would be admissible in evidence,
and shall show affirmatively that the affiant is
competent to testify to the matters stated in the
affidavit. Sworn or certified copies of all papers
or parts of papers referred to in an affidavit
shall be attached to or served with the affidavit.
{¶13} We review the question of subject-matter
jurisdiction de novo as well. Yusuf v. Omar, 10th Dist.
Franklin No. 06AP416, 2006-Ohio-6657, ¶ 7.
Subject-matter jurisdiction is the power conferred on a
court to decide a particular matter on its merits and
render an enforceable judgment over the action.
Morrison v. Steiner, 32 Ohio St.2d 86, 290 N.E.2d 841
(1972), paragraph one of the syllabus.
{¶14} With this standard in mind, we now turn to
Jenkins’s arguments.

App. 10
B. Jurisdiction Over Petition to Return
Property
{¶15} Jenkins argues that the trial court had
jurisdiction because (1) it had “in rem” jurisdiction
pursuant to Penn Gen. Cas. Co. v. Pennsylvania, 294
U.S. 189, 55 S.Ct. 386, 79 L.Ed. 850 (1935), and State
v. Jacobs, 137 Ohio St. 363, 30 N.E.2d 432 (1940);
(2) the city’s law enforcement agency seized the money;
(3) the city’s transfer of the seized money to the federal
government circumvented his constitutional rights; and
(4) the trial court failed to make any factual findings
beyond that it lacked jurisdiction.
{¶16} It is also worth mentioning that in his
appellate brief, Jenkins raises a number of arguments
contesting the actual seizure of his property. The issue
before us, however, is whether the trial court had
subject-matter jurisdiction over Jenkins’s petition for
return of his property, not the merits of that petition.
Thus, we will not address those arguments raised by
Jenkins and will only consider those pertaining to the
trial court’s subject-matter jurisdiction listed above.
1. “In rem” Jurisdiction
{¶17} Jenkins argues that the trial court had
subject-matter jurisdiction over his petition to return
property because it had “in rem” jurisdiction. “A
proceeding in rem is one taken directly against property
and has for its object the disposition of the property
without reference to the title of individual claimants.”
Wallace v. Youngstown, 7th Dist. Mahoning No. 84 C.A.
90, 1985 Ohio App. LEXIS 6708, 4-5 (May 7, 1985).

App. 11
{¶18} In support of his argument, Jenkins cites to
Penn Gen. and Jacobs. In Penn Gen., 294 U.S. 189, 55
S.Ct. 386, 79 L.Ed. 850, the U.S. Supreme Court held
that two courts cannot exercise in rem jurisdiction over
the same res. Id. at 195. As the court stated, “To avoid
unseemly and disastrous conflicts in the administration
of our dual judicial system, * * * the principle,
applicable to both federal and state courts, is
established that the court first assuming jurisdiction
over the property may maintain and exercise that
jurisdiction to the exclusion of the other.” Id. at 196.
{¶19} In Jacobs, 137 Ohio St. 363, 30 N.E.2d 432,
the defendant challenged the sheriff’s taking of his
property during a raid of his premises. After the
defendant pleaded guilty, he applied for the return of
his property. The trial court granted the defendant’s
application. On appeal, the sheriff challenged the
validity of the trial court’s order, arguing that the
defendant had to institute a separate action for the
property and could not file an application in his
criminal case. The court held that “[p]roperty or money
seized by a sheriff in raiding a place where gambling is
conducted is under the control and subject to the order
of a trial court in a criminal proceeding, and the court,
as a part of that proceeding, may make proper
disposition of the property or money so seized[.]” Id. at
paragraph one of the syllabus.
{¶20} This case, however, is distinguishable from
both Penn Gen. and Jacobs because neither a state or
local law enforcement agency asserted a claim against
or seeks to claim Jenkins’s money, and Jenkins has not
shown that the state court exercised jurisdiction before

App. 12
the federal court did over the money. See United States
v. 174,206.00 in United States Currency, 320 F.3d 658,
661 (6th Cir.2003) (finding that the federal court had in
rem jurisdiction over the seized property because the
state court’s jurisdiction was in personam in the
forfeiture action and the state court never exercised in
rem jurisdiction); United States v. One Hundred
Thirty-Four Thousand Nine Hundred Twenty Dollars
in United States Currency, 6th Circ. No. 93-5365,1994
U.S. App. LEXIS 14414, 8 (June 8, 1994) (“[W]here the
federal court is the only court attempting to exercise in
rem jurisdiction over property and the state never
institutes a forfeiture action, the federal court’s
exercise of jurisdiction is proper.”). Further, unlike
Jacobs, Jenkins is not seeking his property as part of
the criminal proceedings against him; instead, he is
seeking it in an entirely separate action. Therefore, we
disagree with Jenkins’s argument that the trial court
had “in rem” jurisdiction over the money seized by
state officials.
2. Seizure by the City
{¶21} Jenkins next argues that the trial court had
jurisdiction because the money was seized by city
officials. Seizure by a state or local law enforcement
agency, however, does not automatically subject the
seized property to the state court’s jurisdiction. United
States v. $99,500 in United States Currency, 6th Circ.
No. 1:16 CV 2422, 2018 U.S. Dist. LEXIS 161089, 23
(Sept. 20, 2018) (“[W]here a federal district court is the
first to assume jurisdiction over the currency, it has in
rem jurisdiction. * * * This is true even if the property
was originally seized by state officers and held by the

App. 13
state prior to the United States ultimately taking
possession.”). Therefore, we reject Jenkins’s argument.
3. Transfer of
Government

Money

to

Federal

{¶22} Jenkins also argues that the trial court erred
because transferring the money to the federal
government circumvented his due process rights. He
states that by upholding the trial court’s decision,
defendants “can simply (1) avoid having to prove there
was a lawful seizure; and (2) avoid having to prove any
monies seized, in the name of the State, was lawfully
given to the [federal government].” He argues that the
process of turning the money over to the federal
government deprives him of “his day in [c]ourt.”
{¶23} Foremost, it is not accurate that Jenkins was
deprived of his day in court. The record contains
exhibits of certified docket entries and other filings and
forms from the federal forfeiture action that were
attached to defendants’ motion for summary judgment.
Those certified docket entries show that Jenkins knew
of and actively participated in the proceedings in
federal court. Therefore, he did have his day in court,
just not in state court.
{¶24} Second, those same certified docket entries
show that Jenkins had the opportunity to contest the
seizure of his money in federal court and did in fact
answer the federal government’s complaint in
forfeiture. The certified docket entries also show that
the district court ordered that the money be forfeited to
the United States of America. Therefore, it appears
that the federal government was required to prove, and

App. 14
did prove, that the seizure was lawful and the money
was subject to forfeiture.
{¶25} Despite our disagreement with Jenkins’s
argument, we are mindful of the concerns that he
raises. This court has previously noted its “disturbance”
with the fact that state authorities “are circumventing
the state forfeiture statute by preemptively turning over
the seized monies to federal authorities [and] are then
disclaiming any responsibility over these funds simply
stating that because the federal government possesses
the funds at issue, ‘we are without jurisdiction to hear
the matter.’” Cleveland v. Cunnningham, 8th Dist.
Cuyahoga No. 95267, 2011-Ohio-2276, ¶ 29 (E.A.
Gallagher, J. concurring in judgment only); see also
State v. Scott, 7th Dist. Mahoning No. 98 CA 174, 2000
Ohio App. LEXIS 1221, 7 (Mar. 22, 2000) (“[T]he trial
judge expressed serious misgivings concerning the legal
loophole which effectively allows local law enforcement
authorities to completely circumvent the procedural
safeguards contained in the state forfeiture statute.
This is accomplished by merely turning the seized
property over to federal authorities pursuant to federal
statute which does not require a defendant’s conviction
as a condition precedent to forfeiture proceedings. The
trial court’s misgivings are highlighted by the fact that
there is an apparent financial incentive for a local police
department to seek the implementation of federal
forfeiture proceedings as opposed to its state law
counterpart. The cumulative effect of this practice is to
reduce Ohio’s forfeiture statute to a functional
nullity.”).

App. 15
{¶26} Nevertheless, our concerns with state law
enforcement officials transferring seized property to
the federal government does not change the fact that
those transfers are lawful. Therefore, we disagree with
Jenkins’s argument.
4. Factual Findings by Trial Court
{¶27} Finally, Jenkins argues that the trial court
erred by not making any other “specific, factually based
findings [besides] * * * the jurisdiction issue.”
{¶28} We remanded Jenkins’s previous appeal
because the record did not contain evidence that the
money was transferred to the federal government.
Upon remand and in granting defendants’ motion for
summary judgment, the trial court discussed and
analyzed a number of our previous cases — State v.
Primm, 8th Dist. Cuyahoga No. 94640, 2011-Ohio-328;
Long u. State, 8th Dist. Cuyahoga No. 97044,
2012-Ohio-366; and State v. Clayton, 8th Dist.
Cuyahoga No. 98795, 2013-Ohio-2198 — that posed
similar jurisdictional issues similar to that in this case.
{¶29} In Primm, after performing a traffic stop of
the defendant’s vehicle, state law enforcement agents
arrested the defendant for drug trafficking, having a
weapon while under disability, and possessing criminal
tools and seized $26,318, a handgun, and marijuana
from the vehicle. The defendant pleaded guilty to
having a weapon while under disability. After he was
sentenced, the defendant filed a motion seeking return
of the money, which the state opposed, arguing that the
money was in the possession of the federal government.
According to the state, it transferred the money to the

App. 16
federal government and provided evidence — a
Declaration of Administrative Forfeiture filed by the
U.S. Department of Justice — of the transfer. The trial
court denied the defendant’s motion. On appeal, this
court found that the trial court “properly deferred to
this declaration” and dismissed the case for lack of
jurisdiction. Id. at ¶ 7.1
{¶30} In Long, officers from the Cuyahoga County
Sheriffs Department and the United States
Department of Justice Drug Enforcement
Administration executed a search warrant and seized
“an undetermined amount of cash” belonging to the
defendant. Id. at ¶ 2. The defendant filed a motion in
the common pleas court seeking return of the seized
money, and the state opposed the motion, arguing that
the trial court lacked jurisdiction because the federal
government had the defendant’s money. The trial court
denied the defendant’s motion, concluding that it
lacked jurisdiction. On appeal, this court found that
there was no “evidence establishing which entity
maintained jurisdiction over the seized property” and
that the evidence submitted by the state failed to
establish “whether state or federal authorities had
actually seized or maintained possession of the seized
property.” Id. at ¶ 8. Asa result, the Long court held
that the trial court erred by dismissing the case. Id. at
¶ 11.

1

Importantly, Primm resulted in three separate opinions, a
majority opinion, a concurring in judgment only opinion with
separate reasons, and a dissenting opinion. Therefore, the lead
opinion’s reasoning is persuasive but not controlling.

App. 17
{¶31} In Clayton, 8th Dist. Cuyahoga No. 98795,
2013-Ohio-2198, state law enforcement arrested the
defendant for drug trafficking, possession of criminal
tools, carrying a concealed weapon, and having
weapons while under disability and seized $22,832
from the defendant’s vehicle. The state later dismissed
the charges against the defendant, and the defendant
filed a motion seeking return of the money in state
court. The state responded to the defendant’s motion,
stating that the money was in the custody of the
federal government, which filed warrants for the
seizure of the money. The trial court denied the
defendant’s motion, and the defendant appealed. On
appeal, this court held that “when property and money
are forfeited under federal law, it is immaterial what
Ohio’s forfeiture statute provides by way of relief[.]” Id.
at ¶ 16, citing State ex rel. Chandler v. Butler, 61 Ohio
St.3d 592, 575 N.E.2d 833 (1991).
{¶32} Here, in its journal entry, the trial court
discussed Clayton, Primm, 8th Dist. Cuyahoga
No. 94640, 2011-Ohio-328, and Long, 8th Dist.
Cuyahoga No. 97044, 2012-Ohio-366, stating,
Like Clayton, defendants’ presented a copy of
the federal warrant for the seizure of Jenkins’
[sic] property in the amount of $14,890.00. See
Defendants’ motion for summary judgment,
Exhibit A-3. * * * Here, as in Primm, the order
of forfeiture, indicates that the $14,890.00 at
issue was forfeited to the federal government on
8/01/16. See Defendants’ motion for summary
judgment, Exhibit D5. * * * Here, as in Long, the
record contains receipts presented by defendants

App. 18
which demonstrate the City of Cleveland
transferred the money in question to the federal
government. See Defendants’ motion for
summary judgment, Exhibit C2.
{¶33} The trial court went on to note that
[o]ther evidence presented in Defendants’
motion for summary judgment, and at the
hearing, indicates that a forfeiture action was
commenced in federal court. See Defendants’
motion for summary judgment, Exhibit D1, D5.
The record shows that Jenkins knew of the
pending forfeiture action in federal court as he
filed an answer in federal court admitting that
the “FBI commenced an administrative
proceeding against the currency.” See
Defendants’ motion for summary judgment,
Exhibit D4, ¶ 4. Additionally, the U.S.
Attorney’s Office provided plaintiff’s counsel
with a notice of the forfeiture action on 3/01/16.
See Defendants’ motion for summary judgment,
Exhibits D1, D2.
{¶34} Based on the above, the trial court found that
defendants “established that the federal government
filed a warrant to seize Jenkins’ [sic] money, the city of
Cleveland transferred Jenkins’ [sic] money to the
federal government, Jenkins was notified of the
transfer of the funds at issue and that a forfeiture
action was commenced in federal court.”
{¶35} The trial court’s analysis could not be more
correct. There were 63 pages of documents attached to
defendants’ motion for summary judgment, which

App. 19
included docket entries and other filings and forms
from the federal forfeiture action.
{¶36} Those documents clearly establish that the
federal government, not defendants, possess and
control Jenkins’s money and that Jenkins was aware of
that fact. Those documents also establish that the trial
court did not have jurisdiction over Jenkins’s petition.
As a result, the trial court was not required to make
additional factual findings after concluding that it
lacked subject-matter jurisdiction. Therefore, we reject
Jenkins’s argument.
{¶37} In conclusion, we find that the trial court
lacked jurisdiction over Jenkins’s petition and properly
granted summary judgment to defendants. Accordingly,
we overrule Jenkins’s assignments of error.
{¶38} Judgment affirmed.
It is ordered that appellees recover from appellant
costs herein taxed.
The court finds there were reasonable grounds for
this appeal.
It is ordered that a special mandate be sent to said
court to carry this judgment into execution.
A certified copy of this entry shall constitute the
mandate pursuant to Rule 27 of the Rules of Appellate
Procedure.

App. 20
/s/
MARY J. BOYLE, PRESIDING JUDGE
FRANK D. CELEBREZZE, JR., J., and
LARRY A. JONES, SR., J., CONCUR

App. 21

APPENDIX C
IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO
Case No: CV-15-854094
Judge: BRIAN J CORRIGAN
[Filed April 13, 2018]
_________________________________
ANDRE JENKINS
)
Plaintiff
)
)
CITY OF CLEVELAND, ET AL.
)
Defendant
)
________________________________ )
JOURNAL ENTRY
96 DISP.OTHER - FINAL
THIS CASE CAME BEFORE THE COURT ON
03/27/18 FOR A HEARING ON DEFENDANTS’
MOTION FOR SUMMARY JUDGMENT, FILED ON
12/01/17. COUNSEL FOR BOTH PARTIES PRESENT
IN COURT. THE COURT CONSIDERED
DEFENDANTS’ MOTION FOR SUMMARY
JUDGMENT, PLAINTIFF’S BRIEF IN OPPOSITION,
AND THE EVIDENCE PRESENTED AND
ARGUMENTS MADE AT THE 03/27/18 HEARING.
THE COURT FINDS THAT THE PROPERTY IN
QUESTION WAS TRANSFERRED TO THE
FEDERAL GOVERNMENT AS WAS THE PROPERTY

App. 22
IN STATE V. CLAYTON, 2013-OHIO-2198 (8TH DIST.
2013). IN CLAYTON, CLAYTON WAS ARRESTED
AND POLICE SEIZED $22,832 FROM CLAYTON’S
VEHICLE. ID. THE TRIAL COURT DENIED
CLAYTON’S MOTION FOR THE RELEASE OF THE
PROPERTY AS THE STATE PROVIDED COPIES OF
TWO FEDERAL WARRANTS FOR THE SEIZURE OF
CLAYTON’S PROPERTY WHICH INCLUDED THE
$22,832. ID. LIKE CLAYTON, DEFENDANTS’
PRESENTED A COPY OF THE FEDERAL WARRANT
FOR THE SEIZURE OF JENKINS’ PROPERTY IN
THE AMOUNT OF $14,890.00. SEE DEFENDANTS’
MOTION FOR SUMMARY JUDGMENT,
EXHIBIT A-3.
IN STATE V. PRIMM, 8TH DIST. CUYAHOGA
NO. 94640, 2011-OHIO-328, CITY OF CLEVELAND
POLICE OFFICERS SEIZED $26,318 FROM PRIMM
DURING A TRAFFIC STOP. IN PRIMM, THE STATE
PRESENTED A U.S. DEPARTMENT OF JUSTICE
DECLARATION OF FORFEITURE STATEMENT
WHICH INDICATED THE DATE ON WHICH THE
FUNDS WERE FORFEITED TO THE FEDERAL
GOVERNMENT PURSUANT TO 21 U.S.C. 881. ID.
HERE, AS IN PRIMM, THE ORDER OF
FORFEITURE, INDICATES THAT THE $14,890.00
AT ISSUE WAS FORFEITED TO THE FEDERAL
GOVERNMENT ON 08/01/16. SEE DEFENDANTS’
MOTION FOR SUMMARY JUDGMENT,
EXHIBIT D5.
IN LONG V. STATE, 8TH DIST. CUYAHOGA
NO. 97044, 2012-OHIO-366, LAW ENFORCEMENT
OFFICERS SEIZED MONEY FROM LONG DURING

App. 23
THE EXECUTION OF A SEARCH WARRANT. HERE,
AS IN LONG, THE RECORD CONTAINS RECEIPTS
PRESENTED BY DEFENDANTS WHICH
DEMONSTRATE THE CITY OF CLEVELAND
TRANSFERRED THE MONEY IN QUESTION TO
THE FEDERAL GOVERNMENT. SEE
DEFENDANTS’ MOTION FOR SUMMARY
JUDGMENT, EXHIBIT C2. OTHER EVIDENCE
PRESENTED IN DEFENDANTS’ MOTION FOR
SUMMARY JUDGMENT, AND AT THE HEARING,
INDICATES THAT A FORFEITURE ACTION WAS
COMMENCED IN FEDERAL COURT. SEE
DEFENDANTS’ MOTION FOR SUMMARY
JUDGMENT, EXHIBIT D1, D5. THE RECORD
SHOWS THAT JENKINS KNEW OF THE PENDING
FORFEITURE ACTION IN FEDERAL COURT AS HE
FILED AN ANSWER IN FEDERAL COURT
ADMITTING THAT THE “FBI COMMENCED AN
ADMINISTRATIVE PROCEEDING AGAINST THE
CURRENCY.” SEE DEFENDANTS’ MOTION FOR
SUMMARY JUDGMENT, EXHIBIT D4, ¶ 4.
ADDITIONALLY, THE U.S. ATTORNEY’S OFFICE
PROVIDED PLAINTIFF’S COUNSEL WITH A
NOTICE OF THE FORFEITURE ACTION ON
03/01/16. SEE DEFENDANTS’ MOTION FOR
SUMMARY JUDGMENT, EXHIBITS D1, D2.
CONSTRUING THE EVIDENCE IN DEFENDANTS’
MOTION FOR SUMMARY JUDGMENT IN A LIGHT
MOST FAVORABLE FOR THE NON-MOVING
PARTY, THE PLAINTIFF, THE COURT FINDS THAT
THE DEFENDANTS ESTABLISHED THAT THE
FEDERAL GOVERNMENT FILED A WARRANT TO
SEIZE JENKINS’ MONEY, THE CITY OF

App. 24
CLEVELAND TRANSFERRED JENKINS’ MONEY
TO THE FEDERAL GOVERNMENT, JENKINS WAS
NOTIFIED OF THE TRANSFER OF THE FUNDS AT
ISSUE AND THAT A FORFEITURE ACTION WAS
COMMENCED IN FEDERAL COURT.
AS SUCH, THIS COURT LACKS JURISDICTION TO
HEAR PLAINTIFF’S COMPLAINT. NO GENUINE
ISSUES OF MATERIAL FACT REMAIN TO BE
LITIGATED AND DEFENDANTS ARE ENTITLED
TO JUDGMENT AS A MATTER OF LAW.
DEFENDANTS’ MOTION FOR SUMMARY
JUDGMENT, FILED ON 12/01/18, IS WELL TAKEN
AND IS GRANTED.
COURT COST ASSESSED TO THE PLAINTIFF(S).
PURSUANT TO CIV.R. 58(B), THE CLERK OF
COURTS IS DIRECTED TO SERVE THIS
JUDGMENT IN A MANNER PRESCRIBED BY
CIV.R. 5(B). THE CLERK MUST INDICATE ON THE
DOCKET THE NAMES AND ADDRESSES OF ALL
PARTIES, THE METHOD OF SERVICE, AND THE
COSTS ASSOCIATED WITH THIS SERVICE.
/s/
Judge Signature 04/13/2018

